<html>
<title> - BETTER, FASTER, CHEAPER, SMARTER, AND STRONGER: INFRASTRUCTURE DEVELOPMENT OPPORTUNITIES TO DRIVE ECONOMIC RECOVERY AND RESILIENCY</title>
<body><pre>[Senate Hearing 116-242]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-242

    BETTER, FASTER, CHEAPER, SMARTER, AND STRONGER: INFRASTRUCTURE 
  DEVELOPMENT OPPORTUNITIES TO DRIVE ECONOMIC RECOVERY AND RESILIENCY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                              JULY 1, 2020
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
  

        Available via the World Wide Web: http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-974 PDF               WASHINGTON : 2020 




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JULY 1, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Grumet, Jason, President, Bipartisan Policy Center...............     6
    Prepared statement...........................................    10
    Response to an additional question from Senator Whitehouse...    27
Lanham, Robert, Jr., President, Associated General Contractors of 
  America Board 2020, and President, Williams Brothers 
  Construction...................................................    29
    Prepared statement...........................................    31
    Response to an additional question from Senator Whitehouse...    41
Goldfuss, Christy, Senior Vice President, Energy and Environment 
  Policy, Center for American Progress...........................    43
    Prepared statement...........................................    45
    Response to an additional question from Senator Whitehouse...    50

                          ADDITIONAL MATERIAL

Letter to Senators Barrasso and Carper from the Portland Cement 
  Association, July 1, 2020......................................    84
The Protective Value of Nature: A Review of the Effectiveness of 
  Natural Infrastructure for Hazard Risk Reduction. Copyright 
  2020, National Wildlife Federation.............................    86

 
    BETTER, FASTER, CHEAPER, SMARTER, AND STRONGER: INFRASTRUCTURE 
  DEVELOPMENT OPPORTUNITIES TO DRIVE ECONOMIC RECOVERY AND RESILIENCY

                              ----------                              


                        WEDNESDAY, JULY 1, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room 106, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Rounds, 
Boozman, Cardin, Whitehouse, and Booker.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I would ask now that the witnesses for 
today's hearing please come forward.
    Good morning. I call this hearing to order.
    Investing in America's infrastructure is critical; it is 
critical as our economy recovers from the coronavirus pandemic. 
Last month, we held a hearing on how rebuilding our highways 
and bridges will create jobs, will reduce the cost of goods and 
services, and will drive our Nation's economic recovery. Today, 
we are going to examine how America's Transportation 
Infrastructure Act will help build roads and bridges faster, 
better, cheaper, smarter, and stronger.
    Three months from today, the surface transportation 
authorization will expire. This cannot be allowed to happen, 
especially during this pandemic-caused economic downturn. To 
make matters worse, the Highway Trust Fund is rapidly 
approaching insolvency.
    Prior to the pandemic, the Congressional Budget Office 
projected that the Highway Trust Fund would run out of money in 
mid-2021. Now, with Americans driving less, the Highway Trust 
Fund will reach insolvency far sooner than first predicted. The 
time for Congress to pass meaningful, bipartisan infrastructure 
legislation is now.
    Last year, this Committee approved historic and bipartisan 
highway infrastructure legislation. We worked together across 
the aisle to pass a bipartisan bill that greenlights broad, 
widely supported ideas.
    Democrats in the House, on the other hand, put up a 
partisan stop sign. The House Democrats' transportation bill 
stands in sharp contrast to our own. House Democrats cut their 
Republican counterparts out of the process, and they wrote a 
completely partisan bill. That is why, after a 36 hour markup, 
it received no Republican votes in committee.
    By comparison, this Committee unanimously passed our 
highway bill in less than an hour.
    The House Democrats' partisan bill is a road to nowhere. 
Instead, Congress should pass the Senate's bipartisan 
legislation and send it to President Trump's desk for 
signature.
    America's Transportation Infrastructure Act will provide 
record levels of investment: $287 billion will be available 
over 5 years to fix our roads and bridges, to create jobs, and 
to boost our economy. The legislation increases funding for all 
States and tribes, it cuts red tape, and it protects the 
environment. It will also increase needed certainty for States 
and communities to plan, to permit, and to build infrastructure 
projects.
    Given the unprecedented economic damage inflicted by the 
coronavirus pandemic, we must assure infrastructure projects 
are not needlessly delayed. The environmental review process is 
important and necessary. It can also cause unnecessary delays. 
Delays increase costs, they limit private investment, and they 
hurt the American worker.
    America's Transportation Infrastructure Act will speed up 
project delivery by cutting red tape and simplifying agency 
reviews. Reducing the time it takes to get environmental 
permits is essential for building new highways and repairing 
existing ones. To improve the permitting process, the bill 
increases predictability, accountability, transparency, and 
flexibility.
    From 2010 to 2017, the Federal Highway Administration 
completed environmental impact statements for 114 highway 
projects. On average, it took almost 7 years to complete each 
one of these environmental reviews.
    America's Transportation Infrastructure Act sets a goal to 
complete the process in just 2 years. The bill also requires 
Federal agencies to establish a unified schedule and empowers 
the project's lead agency to coordinate the entire permitting 
process. These are key elements of the One Federal Decision 
policy.
    The legislation will also ensure America's infrastructure 
is more resilient. Our roads and bridges must be strong enough 
to handle extreme weather events like hurricanes and floods. At 
the same time, our highways must withstand natural disasters 
such as wildfires, earthquakes, and rockslides.
    America's Transportation Infrastructure Act provides nearly 
$5 billion to help protect our roads and bridges from natural 
disasters and extreme weather events. More durable, longer 
lasting roads are safer; they last longer, of course; and are 
more efficient for everyone.
    Passing America's Transportation Infrastructure Act into 
law is critical for our Nation's economic recovery. It will 
ensure better, faster, cheaper, smarter, and stronger projects.
    I look forward to hearing from today's witnesses on this 
important topic.
    Now, I would like to turn to Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I do want to welcome our witnesses. Thank you all for 
joining us live and in person this morning. We do a lot 
virtually around here; I am sure you do where you live and work 
as well. It is nice to see you here, and thank you for your 
work and for your presence and your testimony.
    Mr. Chairman, I want to thank you for holding this 
important hearing today.
    I want to say a special thanks to all of our members of 
this Committee, Democrat and Republican, and one Independent, 
to thank them and their staffs for helping us produce a 
bipartisan surface transportation reauthorization bill a year 
ago that we reported unanimously out of this Committee.
    Let me begin by noting that as we meet here today, the 
House is also debating a broad infrastructure bill of their own 
that includes not just surface transportation, but also 
drinking water, energy infrastructure, and broadband. Those are 
very important subjects.
    The cornerstone of their bill, however, is the House 
Transportation and Infrastructure Committee's surface 
transportation legislation. With the anticipated adoption of 
that bill, perhaps even later today, the House is poised to 
move closer to joining us in reauthorizing our Nation's surface 
transportation programs, which are set to expire this fall. I 
am sure we all welcome their progress. Although we may disagree 
on some of the particulars there, we do welcome their progress.
    Now, with the surface transportation reauthorization bill 
moving in the House, it is time for the Senate Banking 
Committee and the Senate Commerce Committee to develop their 
own bipartisan titles so that a truly robust surface 
transportation reauthorization bill can come to the Senate 
floor in the months ahead. The American people are counting on 
us to get this done. Let's not let them down.
    Every member of our Committee knows that America's 
transportation infrastructure is essential to our economy, to 
our society, and if truth be known, to our way of life. The 
more than 4 million miles of roadway and 600,000 bridges in 
this country are essential not just in connecting us to 
commerce and to services, but more importantly, connecting us 
to one another. Unfortunately, across our country, many of 
those same roads, highways, and bridges are in desperate need 
of repair.
    Whether you happen to be driving an 18-wheeler truck 
hundreds of miles a day on interstates across the heartland, or 
hitting pot holes on your way to work or the grocery store, or 
to drop off the kids, just about every driver in America will 
agree that our surface transportation infrastructure needs 
work, a lot of it.
    While some roads simply need repairs or repaving, others 
need to be rebuilt or completely redesigned. According to the 
U.S. Department of Transportation, approximately 20 percent of 
our Federal aid highways are in poor condition--20 percent--as 
are some 46,000 bridges.
    For decades, we have invested in surface transportation 
infrastructure as a country oftentimes without making 
meaningful progress toward improving safety, reducing harmful 
emissions, and enhancing resilience. Now, we face a growing 
climate crisis that will only make those challenges even more 
daunting.
    Last week, some of the coldest places on Earth experienced 
a historical heat wave. I don't know if my colleagues got to 
see the news, but temperatures exceeded 100 degrees Fahrenheit 
in the Arctic Circle for the first time in recorded history. 
Think about that, 100 degrees.
    Earlier this year, on the other side of the planet in 
Antarctica, my wife and some of her girlfriends from their days 
at DuPont were down in Antarctica. Shortly after they left, the 
temperatures there reached 70 degrees Fahrenheit, 70 degrees 
Fahrenheit, another record.
    With historic heat waves reaching the coldest corners of 
our planet, 2020 is on course to be the hottest year in 
recorded history. Moreover, we are being told that the forecast 
for this year's hurricane season may well set new records, too, 
raising serious concerns all along the Atlantic Coast and 
throughout the Gulf Coast.
    Speaking of the Gulf of Mexico, one of our Republican 
colleagues from Louisiana volunteered to me last week that sea 
level rise continues to worsen in his State, too, where they 
are losing roughly a football field of land a day--a football 
field of land a day--to the sea. You will recall that a year 
ago, the target of Mother Nature's fury was the Midwest, where 
torrential rains and catastrophic flooding brought havoc to 
many farming communities, delaying planting for a month or more 
in some places.
    Farther west, in places like California, Nevada, Oregon, 
and Utah, communities are still reeling from last year's 
wildfires, some of which were bigger than my State. And now, 
they are preparing out there for another dangerously hot and 
dry summer season.
    These extreme weather events are happening more frequently, 
pushing the National Flood Insurance Program ever further into 
the red and damaging our infrastructure to the tune of hundreds 
of billions--not millions, billions--of dollars each year.
    As global temperatures continue to warm, ice caps melt and 
sea levels rise, scientists tell us that the record breaking 
heatwaves, devastating hurricanes, catastrophic floods, and 
drought fueled wildfires we are already witnessing throughout 
the world aren't likely to get better. If we don't get on the 
stick, as my grandfather used to say, they are likely to get 
worse.
    Now, having said that, I understand that some of our 
colleagues are interested in talking about the importance of 
streamlining today, and it is important that we do that. As we 
pivot to streamlining, however, let me ask that we keep in mind 
that only about 1 percent of Federal highway projects require 
the most complicated type of Federal environmental review. That 
means 99 percent don't.
    When Chairman Barrasso and I, with the help of our staffs, 
first began our work on this legislation before us, America's 
Transportation Infrastructure Act, nearly 2 years ago, we 
learned that Congress has passed more than 60 streamlining 
provisions all told in the last four transportation bills, even 
though, I am told, the most detailed environmental reviews are 
needed for about only 1 percent of Federal projects. I believed 
then, and I still believe now, that we need to do more than 
just stack more streamlining provisions on top of existing 
ones. We ought to be able to move streamlining provisions. We 
also need to ensure that the ones we have adopted are being 
implemented.
    In ATIA, we address streamlining needs in part by focusing 
on how to make existing processes work better. In doing so, we 
demonstrate that it is possible to facilitate important 
projects without forgoing environmental protection. That is a 
win for all of us who use America's roads, highways, and 
bridges, and it is a win for our planet. Where I come from, we 
call that a win-win situation. We could all use a few more of 
those.
    Some of our colleagues know that I am fond of quoting 
Albert Einstein, who once said famously, ``In adversity lies 
opportunity.'' God knows we face plenty of adversity these days 
in our country and on our planet; pandemics, tens of millions 
of Americans out of work, and the list goes on and on.
    Having said that, there is opportunity here if we look for 
it and seize the day. That is what our Committee did last 
summer under the leadership of our Chairman, John Barrasso. We 
led by our example. We didn't wait until the last minute. We 
got out of the starting gate early.
    A year ago, we unanimously approved ATIA, our bipartisan 
surface transportation reauthorization bill that would make an 
historic $287 billion investment in our Nation's roads, 
highways, and bridges. We then said to our sister committees, 
the Banking Committee, our friends on the Commerce Committee, 
and those on the Finance Committee, including me, we are doing 
our job on EPW; it is time for you on these other three 
committees to do your jobs.
    Is ATIA perfect? No. No bill that I have ever helped write 
has been perfect, but this is legislation that we can be proud 
of, even as we work to make it better in the days ahead.
    Coming from the lowest lying State in the Union, I am 
especially proud and grateful that our bill includes the first 
ever climate title in a transportation bill in the history of 
the Congress, investing some $10 billion over the next 5 years 
directly in programs and policies that will combat climate 
change by reducing emissions and improving the resiliency of 
our transportation networks and infrastructure.
    ATIA invests nearly $5 billion over 5 years in a new 
resilience formula program available to all States, as well as 
a competitive resilience grant program. These new PROTECT 
grants would support projects across America that reinforce, 
upgrade, or realign existing transportation infrastructure to 
better withstand extreme weather events and other effects of 
climate change.
    ATIA also harnesses the power of Mother Nature by 
establishing new eligibilities for natural infrastructure, like 
the marshes and wetlands that protect our roads and bridges 
from storm surges, in the National Highway Performance and the 
Emergency Relief Program.
    Mr. Chairman and colleagues, let me close with this. A lot 
has changed in the world since we first reported our surface 
transportation reauthorization legislation nearly a year ago. 
It seems like a decade ago. The coronavirus pandemic has 
radically changed our lives, and tragically, taken nearly 
130,000 American lives.
    Just as all of us have been compelled to adjust and adapt 
to a new normal in our everyday lives over the last several 
years, we as a nation need to face the facts of the climate 
crisis. With our bill, we are beginning to do so. We need to 
keep it up, and while doing so, we need to build and rebuild a 
surface transportation infrastructure of roads, highways, 
bridges, and transit systems that are, once again, the envy of 
the world.
    With that, Mr. Chairman, I look forward to our conversation 
this morning and to hearing from our witnesses, and to the work 
ahead of us to make America's infrastructure better, smarter, 
and truly, stronger.
    Thank you very, very much.
    Senator Barrasso. Thank you very much, Senator Carper. We 
appreciate it.
    We are joined by three witnesses today that we are 
delighted to welcome to the Committee. We have Mr. Jason 
Grumet, who is the President of the Bipartisan Policy Center. 
We have Mr. Bob Lanham, who is the President of the Associated 
General Contractors of America. And we have Ms. Christy 
Goldfuss, who is the Senior Vice President, Energy and 
Environment Policy, of the Center for American Progress.
    Welcome to all three of you. I want to remind you that your 
full written testimony will be made a part of the official 
record today. So we ask you to please try to keep your 
statement to 5 minutes, so that we may have some time for 
questions. I look forward to hearing testimony from all three 
of you.
    If we may start with Mr. Grumet.

                  STATEMENT OF JASON GRUMET, 
              PRESIDENT, BIPARTISAN POLICY CENTER

    Mr. Grumet. Thank you, Chairman Barrasso, Ranking Member 
Carper, and the Committee, for the hard work, and particularly 
for the very collaborative process you have undertaken in 
developing the America's Transportation Infrastructure Act.
    I am pleased to be here this morning to share the 
Bipartisan Policy Center's strong support for this actionable, 
bipartisan effort that will spur economic recovery, strengthen 
surface transportation, and create a new model of bipartisan 
cooperation that I believe offers a real solution to the 
climate crisis.
    I should apologize to your staff for the undue length of 
our written testimony, but want you to understand this as an 
expression our exuberance for being involved in a process that 
is actually trying to put legislation on the desk of the 
President of the United States.
    All too often, we find the legislative process being used 
to score political points and come up with messaging bills. I 
think the time is now actually to act, and I commend the 
Committee for the spirit of this legislative approach.
    I will try to summarize my testimony by focusing on a few 
of the highlights of the bill, and then also really explain why 
we believe the combined focus on an official regulatory 
approval process, emissions mitigation, and resilience, 
represent the essential ingredients of a serious bipartisan 
response to climate change.
    There are three aspects of the legislation I would like to 
call out. The first is the effort to unleash $300 billion of 
critical economic activity at a moment when we have millions of 
Americans looking for work, and State and local budgets in 
disarray.
    I also want to acknowledge the efforts to promote the 
significant investment in clean technologies, and emissions 
reductions, and in resilience against climate driven risk. And 
finally, embrace the common sense permitting reforms that focus 
on coordination and efficiency while sustaining the core values 
and protections of the environmental review process.
    As a democracy that respects private ownership and local 
governance, I am proud that American citizens play a role in 
decisions that affect their families and communities. I think 
we have to resist the infrastructure envy and anecdotes about 
how quickly totalitarian regimes can build airports.
    We also have to avoid an exaggerated focus on horror 
stories, as I think Senator Carper indicated. The vast majority 
of projects do move forward quickly.
    But the truth is that our record on infrastructure is 
mixed. While most projects do move forward, we could do much 
better to create predictability, transparency, and 
accountability.
    I also think we have to contend with the likelihood that 
the long timeframes in our permitting process result in 
political risks to investments that are causally related to the 
private sector's vast under-investments in critical 
infrastructure. So I commend the Committee for efforts to 
create a more efficient, transparent, timely, and predictable 
process.
    I think the improvements that you are suggesting in 
permitting fall into three basic categories. You are creating a 
presumption of timeliness to encourage agencies to complete 
their environmental reviews within an average of 2 years, a 
presumption of coordination by codifying the bipartisan 
components of the One Federal Decision, and requiring Federal 
agencies to work together in applying categorical exclusions, 
and a presumption of accountability by requiring a new 
performance system for tracking major projects.
    I would like to now turn to the broader implications for 
the energy and climate debate. The hearing is titled Better, 
Faster, Cheaper, Smarter, and Stronger. Mr. Chairman, I think 
you have buried the lede by leaving out cleaner.
    The future of our environment and our economy demands a new 
coalition committed to building fast and building clean. While 
conservation and energy efficiency are essential components of 
an effective strategy, the solution to climate change and to 
global competition depend on vast and urgent efforts to 
develop, finance, permit, site, and construct new technologies 
on a scale beyond what we have ever contemplated.
    The Bipartisan Policy Center is increasingly concerned that 
the United States will in fact succeed in inventing new, low 
cost, competitive technologies for decarbonization but fail to 
deploy these systems in time to avoid and manage the worst 
effects of climate change.
    I think members of this Committee appreciate far better 
than most what it will take to achieve net zero emissions 
across our economy. We need vast increases in solar and wind 
power, supported by new transmission and massive battery 
storage facilities, thousands of miles of new pipelines to move 
CO<INF>2</INF> from power generation to manufacturing, to 
permanent underground sequestration reservoirs. We need 
electric vehicle and hydrogen refueling infrastructure, new 
fleets of advanced nuclear reactors, deep bore geothermal, 
advanced hydropower, new facilities to capture carbon from the 
air.
    With continued leadership from many of you on this 
Committee on efforts like the USE IT Act, and the Nuclear 
Energy Leadership Act, and the efforts of your colleagues in 
the Energy Committee on the Energy Innovation Act, I am 
actually optimistic that the United States will invent low 
carbon cost effective solutions. It would be beyond tragic to 
excel at technology but fail at bureaucracy.
    The focus on transportation, the provisions in this Act 
spur forward looking infrastructure investments that can 
improve the siting process much more broadly than just the 
transportation sector. I would like to just note three 
enhancements that I think are consistent with the spirit of 
this legislation that I encourage you to consider.
    The first is to reauthorize FAST-41. This is legislation 
that has had bipartisan support, and it codifies the same basic 
ideas in this package but applies them to a broader suite of 
technologies.
    Second, I would urge you to focus on life cycle cost 
analysis. This must become the norm. Our history of building 
cheap and passing along the buck was never a good idea. Based 
on the extreme weather, it is revealing a tragic consequence. 
We are never going to get ahead of resilience if we don't start 
to think about full cost accounting.
    Finally, I think our biggest challenge is our Federal 
Republic. I believe the national imperative to de-carbonize our 
economy while increasing global competitiveness will require 
much greater Federal authority to advance critical projects 
despite local opposition. And I believe that we have to revisit 
ideas like the Critical Corridors Section of the Energy Policy 
Act of 2005, which a number of you were a party to.
    However, I also believe that certain place based 
assessments must be strengthened in order to advance an 
enduring and equitable climate solution. There is clear 
evidence that communities of color have borne a 
disproportionate burden of environmental harm from past energy 
and infrastructure siting. This history must not be brushed 
aside, nor repeated.
    Many of these new, clean facilities will create jobs, grow 
the tax base, and improve the quality of life in surrounding 
communities. But in some cases, national and global benefits 
may come at a cost to local communities. These costs must be 
shared equitably.
    In closing, Mr. Chairman, for too long we have allowed our 
economic future to be held captive to magical thinking across 
the political spectrum. In this caricature of extreme 
perspectives, some have ignored or otherwise sought to 
delegitimize the imperative of climate action. Others have 
embraced the un-serious view that a solution can be achieved 
quickly by transitioning to a sole reliance on renewed 
resources without considering the economic, land use, and 
reliability concerns, or resolving the citing challenges that 
have plagued conventional energy projects.
    Yet, these extremes have produced only paralysis and 
acrimony, as both sides focus on the irresponsible positions of 
the other, rather than facing their own limitations or seeking 
common ground. Against this backdrop, passing this legislation 
would be the highest common denominator affirmation that we 
have the political will and the capacity to rebuild our economy 
while meeting the climate challenge.
    I thank you and your staff for your hard work and am eager 
to participate in the conversation.
    Thank you.
    [The prepared statement of Mr. Grumet follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for your 
participation and your testimony. We are very, very grateful. 
And your suggestion to not bury the lede is a very good 
suggestion. Thank you.
    Mr. Lanham.

STATEMENT OF ROBERT LANHAM, JR., PRESIDENT, ASSOCIATED GENERAL 
  CONTRACTORS OF AMERICA BOARD 2020, AND PRESIDENT, WILLIAMS 
                     BROTHERS CONSTRUCTION

    Mr. Lanham. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee on Environment and Public Works, thank 
you for the invitation to testify today.
    My name is Bob Lanham. I am a highway and bridge contractor 
from Houston, Texas, and I have the pleasure of serving as the 
2020 President of the Associated General Contractors of 
America.
    AGC is a national organization representing 27,000 
businesses involved in every aspect of construction activity in 
all 50 States, Puerto Rico, and Washington, DC. On behalf of 
AGC, the construction industry, and this Nation, I want to 
thank this Committee for its bipartisan work on the America's 
Transportation Infrastructure Act.
    Our transportation infrastructure is not built by one 
contractor, nor should the laws governing it be developed by 
one political party. Bipartisan compromise enhances the 
likelihood of legislative success, and ensures that all these 
programs reflect the diverse needs of the States.
    Before I talk about some of the important provisions in 
ATIA, I would like to first address two things. One, the 
immediate need of infusion of Federal funding for State DOTs; 
and two, the need for an enactment of a robust multi-year 
surface transportation bill.
    With regard to the immediate needs of the DOTs, the COVID-
19 pandemic has had an unprecedented impact on our economy, the 
American people, and the construction industry. States' 
transportation revenues are expected to decline by 30 percent 
over the next 18 months. This has caused many DOTs to delay 
letting new projects. Construction businesses, just like any 
other business, cannot survive many, many months without work.
    In response, AGC is urging the Congress to provide an 
immediate infusion of $49.95 billion in Federal funding to 
support the State DOT funding shortfalls. I applaud Senator 
Rounds for leading, and many of you on this Committee, for 
signing the bipartisan letter to the Senate leadership in 
support of this funding request.
    With regard to a long term bill, the pandemic has clearly 
reminded us that a safe, efficient, and reliable transportation 
system is vital to any national emergency response. Our system 
facilitates economic growth, and it improves the quality of 
life of all Americans. The enactment of a long term surface 
transportation bill, such as ATIA, will provide certainty 
needed by the States' DOTs to plan and carry out critical 
infrastructure investments. It will also provide a significant 
economic boost to our Nation at a time when it is sorely 
needed.
    With regard to some of the other provisions in ATIA, it is 
not just enough to provide robust investment levels. The bill 
has other provisions in it that add extreme value. One, the 
improvement of the environmental review and permitting process, 
while all along protecting the environment. Finally, the 
building of resilient infrastructure.
    Over the years, the Congress has enacted laws that have 
tried to assure a balance between environmental, economic, and 
health concerns. However, in this complicated operation and 
complex network of these laws and the intersection of all these 
requirements, sometimes those were overseen, and the 
environmental review process was delayed.
    AGC is pleased that ATIA has incorporated the provisions to 
improve the process. The most significant is simply the 
codification of Executive Order 13807, which institutes the One 
Federal Decision. This provision calls for a Federal 
authorization and reviews to rely on a single environmental 
document, establishes a 2 year goal for the completion of a 
review of a major project, and a 90 day timeline related to any 
authorization decisions to be issued after a record of 
decision.
    It also improves transparency through performance 
accountability. It works like a business. Tracking system for 
the review and the permitting process itself, and in that 
allows for a monitoring and reporting of how the system is 
working.
    Other important provisions include but are not limited to 
the establishing of deadlines for a Federal agency to review 
and respond to categorical exclusion projects, requiring 
certain reports that, especially one that details best 
practices and potential changes to internal procedures at USDOT 
to expedite the review process.
    In recent years, our Nation has experienced significant 
natural disasters. I partially experienced Harvey in Houston, 
and the flooding associated. Our system is vital to our ability 
to respond to and recover from these disasters. However, we 
have all seen the pictures in the news of the roads that are 
submerged or bridges that are crumbling.
    AGC appreciates that ATIA includes provisions to improve 
the resiliency of the transportation system. Arguably the most 
important of these is the PROTECT grant program, funded at 
nearly $1 billion per year. The diverse eligibilities of this 
program will help ensure that the different needs of the States 
can be addressed.
    Chairman Barrasso, thank you for convening today's hearing. 
It is a golden opportunity for the Congress. At a time when it 
seems there is little that we can agree on, infrastructure 
might prove to be that missing link.
    I thank the Committee for its steadfast bipartisan efforts 
to improve our Nation's transportation infrastructure, and I 
look forward to answering any of your questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lanham follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for that very helpful 
testimony. We appreciate your being here today.
    At this time I would like to turn to Ms. Christy Goldfuss, 
who is the Senior Vice President of Energy and Environment 
Policy at the Center for American Progress.
    Welcome.

 STATEMENT OF CHRISTY GOLDFUSS, SENIOR VICE PRESIDENT, ENERGY 
      AND ENVIRONMENT POLICY, CENTER FOR AMERICAN PROGRESS

    Ms. Goldfuss. Thank you.
    Good morning, everyone.
    Good morning, Chairman Barrasso and Ranking Member Carper. 
Thank you for inviting me to participate in this important 
hearing. It is truly nice to be out of the house for the first 
time in 3 months and be here in person.
    I am the Senior Vice President of Energy and Environment 
Policy at the Center for American Progress, and previously ran 
the White House Council on Environmental Quality during the 
Obama administration.
    Here is what I would like to tell the Committee today. 
Infrastructure policy cannot be separated from its implications 
for climate change, land use, structural racism, and the health 
of our communities.
    The transportation sector is now the leading source of 
carbon pollution. The best time to incorporate the imperatives 
of climate change and climate justice into transportation 
policy were decades ago. But the second best time is now.
    I congratulate the Environment and Public Works Committee 
for S. 2302, America's Transportation Infrastructure Act, which 
takes some important steps to grapple with these thorny and 
critical issues.
    The $10 billion climate change subtitle, the first ever in 
a transportation bill, sets aside about 3.5 percent of highway 
funding to retrofit or relocate existing infrastructure to 
reward States that reduce transportation related greenhouse gas 
emissions. This is a promising start, especially given the 
bipartisan support.
    At the end of the day, the fact that there is a climate 
change subtitle in this bill will mean that there should never 
again be a transportation bill that fails to invest in climate 
mitigation and resilience. Following your lead, consider how 
the House's current infrastructure bill begins to incorporate 
climate policy into the core highway funding programs, in 
addition to creating new funding programs similar to ATIA, for 
adaptation and mitigation. This kind of bicameral interest in 
reform represents a critical recognition that infrastructure 
policy is climate policy.
    However, the climate funding in this bill cannot be put to 
good use to build resilient, climate ready infrastructure 
without proper planning, community engagement, and public 
review of the anticipated results. As this Committee is aware, 
this environmental review is the purview of the National 
Environmental Policy Act, or NEPA, which you are all quite 
familiar with, and which is currently under significant and 
overreaching attack from the Trump administration in the 
rewrite of the NEPA regulations.
    NEPA is central, not antithetical, to the rapid permitting 
and construction of resilient and equitable infrastructure 
projects. Such projects require hundreds of millions, often 
billions of taxpayer dollars. It does not make sense to leap 
before we look and build an expensive new bridge in a location, 
for example, that is going to be underwater in 5 years because 
of sea level rise and storm flooding. That common sense 
approach is why 80 percent of Americans support NEPA. They 
truly want both a clean environment and strong infrastructure, 
and don't want to sacrifice one for the other.
    NEPA and the environmental review process also ensure that 
all communities, particularly Black communities and other 
communities of color, have a voice in decisions that affect 
their neighborhoods and livelihoods. Without NEPA and with the 
changes that the Trump administration is near to finalizing in 
the regulations, communities will be unable to push back on 
projects that may literally make it harder for them to breathe.
    This is not an abstract concern. Just this week, the 
Rhodium Group released an analysis that found, on average, 
Black Americans are exposed to 46 percent more diesel 
particulate matter emissions and 22 percent more air toxic 
respiratory hazards than White Americans.
    Given dozens of actions by Congress over the past 20 years, 
we already have the necessary tools to ensure that NEPA's 
process is efficient, transparent, and successful.
    But the Federal Government must use the authorities granted 
and invest in staff, basic tracking technology, and project 
management systems, not slash support, as this Administration 
has done. Specific recommendations for improving NEPA based on 
my experience at CEQ are included in my written testimony.
    As this Committee knows, infrastructure policy is climate 
policy. And climate justice is also racial justice. This bill 
is a first step toward both these goals.
    With investment, community input, and careful planning, we 
can truly form a more perfect Union, one built around justice, 
opportunity, and hope.
    I look forward to your questions. Thank you for having me.
    [The prepared statement of Ms. Goldfuss follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you for your very thoughtful 
testimony. We are glad to have all three of you here today.
    I want to start with a question that actually goes to all 
three of you.
    I'm going to start with Mr. Lanham first. America's 
Transportation Infrastructure Act requires, as we talked about, 
environmental reviews for major highway projects to be 
completed in a timely and predictable manner. The permitting 
reforms in this bill mirror the Administration's One Federal 
Decision policy.
    So starting with you, Mr. Lanham, will each of you please 
elaborate on how the bill's bipartisan permitting reforms will 
help deliver these projects faster, better, cheaper, and 
cleaner, while not sacrificing environmental safeguards?
    Mr. Lanham. Thank you, Mr. Chairman.
    As we read it, absolutely nothing has changed in what 
agencies review and what standards need to be--there has not 
been a change in any of the environmental criteria by which it 
is just requirement that each must run concurrently and 
efficiently as they move through the process. So there has been 
no change.
    The other benefit of that is it collapses the time. Instead 
of being sequential, it is concurrent review and evaluation of 
a project. That collapses schedule, much in the same way that 
we as builders collapse schedule looking at concurrent 
construction activity to moving.
    The other thing I think often goes overlooked, Mr. 
Chairman, is that the program itself showing relevance to 
public need, when the process is delayed from concept to 
delivery, when you hear at a public hearing, I am not worried 
about it; my grandchildren will. Then that project, the entire 
program loses relevancy to immediate public need. If we are 
talking about resiliency and those other issues that are of 
immediate concern, we need a program that moves forward, and 
that can address those.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Ms. Goldfuss.
    Ms. Goldfuss. One Federal Decision is not a problem in the 
way it is written. It is how it is administered. The whole 
orientation of One Federal Decision is to make clear that the 
client of the Federal Government is the project proponent. That 
is just one client. The other client that is very important is 
the American public.
    So from my time at CEQ, I was very much in favor of FAST-41 
and the permitting counsel that we have. Because I do think 
having guidelines, transparency, and really making sure that we 
are building off the data that each agency has is important. 
And you need transparency and predictability to move forward 
and build the country the way we need to build it.
    The problem is, you have to allow for the community 
engagement. That is a key part and a key constituency that is 
not recognized in the One Federal Decision.
    So I don't in and of itself have an issue; it is just with 
how it is implemented, to make sure that we are continuing to 
keep community voices as part of that process, and as part of 
the timeline and the transparency that a project proponent 
needs. Because if you don't engage the community, you run into 
all these problems on the back end. And that actually, at the 
end of the day, slows down the process.
    Senator Barrasso. Thank you.
    Mr. Grumet.
    Mr. Grumet. I think I will just add that we all agree that 
you have to have a good process and good execution. I think the 
premise of NEPA requires focus and coordination.
    The one thing that Congress really didn't imagine when NEPA 
was first put in place was the variety of different Federal 
agencies, all who have different opinions, different views, and 
different processes. So I think the most important aspect of 
One Federal Decision is that we have to have one Federal 
Government that is actually working at the same purpose.
    I think you can summarize NEPA as a tale of two bridges. We 
had the Tappan Zee Bridge, the Administration made it a 
priority, the community focused on it, and within 11 months, a 
$3.9 billion project EIS was complete, and that was an 
incredible success story.
    Fifty miles downriver, you had the Bayonne Bridge. Just 
wanted to raise the bridge, same footprint. It took 5 years to 
get a Federal decision that there was no significant impact. 
Same process.
    So I think Ms. Goldfuss is right; it is about execution. I 
think the permit provisions in this bill set the right 
expectations for the country.
    Senator Barrasso. Hurricane season began June 1st, puts 
much of the East and Gulf Coast on warning into the fall. June 
through early July is peak fire season across the West.
    In my home State of Wyoming, we can experience natural 
disasters, wildfires, as well as severe flooding, rockslides. 
So the toll that these natural disasters take on our Nation's 
roads and bridges is significant.
    Let me start with you, Mr. Grumet. What are the benefits 
that States will see from investing in building more resilient 
roads and bridges as this bill recommends?
    Mr. Grumet. Mr. Chairman, I think it is an incredible 
insight, and very important to the Nation to realize that in 
2019, it was the fifth year in a row that we had over $10 
billion natural disasters. The extreme weather, being driven by 
climate change, and the cost of extreme weather being driven by 
our economic development, are only going to get worse. We just 
have to get ahead of it.
    So I think as was indicated, the focus on resilience in 
this title is essential. It has been determined that every 
dollar invested by FEMA or HUD in resilience brings back $6 in 
saved costs. I also think it is really essential that we think 
broadly about how we are going to pay for our disaster 
resilience going forward. I think this Committee can do a lot 
of good if we brought disaster relief on budget, so that we 
actually thought about the full costs of our natural disasters 
and made the right kind of investments in resilience.
    Senator Barrasso. Ms. Goldfuss, I am out of time, so if you 
could briefly respond, because as you talked about, the best 
time to do something was 20 years ago; the second best time is 
today. I heard the same about planting a tree; best time to 
plant a tree 20 years ago; second best time is today. What are 
your thoughts on the resilience issue, and the benefits?
    Ms. Goldfuss. I think it is critical, as this Committee has 
done, to really focus on the States making this decision as 
well, because every State is different. The impacts of extreme 
weather are really regional and depend on what the conditions 
are in that State.
    So this is really the step that needs to become the norm in 
the future, as we experience more and more extreme weather. We 
have the tools, we have the information to plan for this. It is 
irresponsible to not spend the taxpayer dollars in a way that 
accounts for that.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I just sat here listening to our witnesses, Mr. Chairman, 
and colleagues. We usually have very, very well spoken 
witnesses, thought provoking testimony, and excellent 
responses. But I think today it is especially so.
    I just wonder, have any of you been on a debate team? 
Seriously, a debate team, in college?
    Mr. Grumet, I see you raised your hand. Where did you go to 
school?
    Mr. Grumet. I was at Brown University. I actually had the 
privilege of debating with Senator Coons.
    Senator Carper. No kidding.
    Mr. Grumet. He was even good back then.
    Senator Carper. He still talks about that.
    Anybody else? Maybe anybody else in the room?
    Maybe we will get Johns Hopkins. Somebody in this room that 
you might have come across, come up against, like Mary Frances 
Repko?
    Mr. Grumet. Mary Frances--you are setting me up, Senator. 
Yes, Mary Frances was a terror at the lectern.
    [Laughter.]
    Senator Carper. I don't win many arguments with her, 
either.
    [Laughter.]
    Senator Carper. Ms. Goldfuss, were you really?
    Ms. Goldfuss. Yes, and I also went to Brown University.
    Mr. Grumet. We didn't get out much, so the corona crisis 
actually brings us back to our college experiences of basically 
being by ourselves in our dorms reading our debate text.
    [Laughter.]
    Ms. Goldfuss. Ranking Member Carper, you have to ask who 
won the debate.
    [Laughter.]
    Senator Carper. You can respond for the record.
    [Laughter.]
    Senator Carper. This question is for all of you, we will 
start with Mr. Lanham, then Jason, and then Christy Goldfuss.
    Our ATIA bill includes the very first ever climate title in 
a highway bill. As some of you have noted, it makes $10 billion 
of investments in resilience of our infrastructure, recharging 
and refueling stations to support the use of clean vehicles and 
planning to reduce emissions. We added these provisions because 
our Committee members on both sides of the aisle saw a need for 
a new program to help States respond to the extreme weather 
that they are regularly facing.
    The House today is considering legislation that would make 
additional investments in similar programs, although some are 
structured differently than our own.
    A question for each of you: What are the benefits of 
addressing climate risks to our transportation systems in the 
surface transportation reauthorization? And conversely, what 
are the risks to safety and the economy of failing to address 
the current and future impact of climate change on our roads, 
highways, bridges, and other transportation systems?
    Mr. Lanham, would you lead us off, please?
    Mr. Lanham. Thank you, Ranking Member Carper. I think that 
the need to address climate change is now rather than later. We 
talk about the severe weather, that plays right into the need 
to address it.
    Senator Carper. Are you from Houston?
    Mr. Lanham. I am.
    Senator Carper. I was there, I was there right on the heels 
of Hurricane Harvey.
    Mr. Lanham. Yes, you talk about building, mitigating 
infrastructure; we had 3 feet of water over everything. It was 
kind of hard to go anywhere.
    The States need to be able to adapt and use the grant 
program under your ATIA in a flexible manner to approach it. 
But I think this all plays to the immediate need for resiliency 
in our infrastructure.
    But how it gets defined, leaving this broad enough so each 
one--is it seismic retrofit out west, or is it flood 
evacuation? We can't lift Houston 3 feet if that much water 
falls. But we can see to the safe evacuation of all because we 
have resilient infrastructure in place that will allow for safe 
evacuation of people in the event of a hurricane that strikes 
the Gulf Coast.
    I think you have set up that mechanism of which each of the 
States can address that to their own devices, their own 
peculiar and unique needs. But it is something that needs to be 
pushed now.
    Senator Carper. Thank you so much.
    Mr. Grumet, same question, and I'll ask you to try to be 
brief.
    Mr. Grumet. I will try to be brief, and it will be 
difficult, because this is a passion of mine, Senator.
    I believe that the effort to integrate climate concerns and 
the facilitation of building new infrastructure is a real 
inflection point that has truly the potential to shift the 
climate debate. We have been in a terribly stalemated position 
in which advocates for climate change have found themselves 
opposing modernity, and opposing new infrastructure.
    When you look at the scale of the challenge, we have to 
build things many, many times faster, many, many times larger, 
many, many times bigger than we ever have before in human 
history. We are going to have to do all kinds of incredible, 
incredible projects.
    And our regulatory structure right now does not tolerate 
success. So rather than focusing on single projects and single 
pipelines and fighting about doing brown things slow, we have 
to have a new coalition that comes together to build the future 
fast.
    I think that the climate advocacy community, if it sees the 
Congress moving toward solutions on climate change, will get 
past that kind of resistance to building things and actually 
recognize that the thing that we need more than anything to 
solve the climate challenge is to figure out how to modernize 
and facilitate faster construction of new, modern 
infrastructure.
    Senator Carper. Thank you. Thank you for those words.
    Ms. Goldfuss, please, same question.
    Ms. Goldfuss. Just quickly, we have seen with coronavirus 
that our economic system is not immune to external shocks. And 
climate is going to be a huge external shock, the cost of 
bridges, the cost of roads, mortgages when communities are 
underwater and the homes aren't worth as much as they were 
before. This is something we have to plan for, and in building 
resilience into our infrastructure, we are planning to be 
stronger in the future.
    I completely agree that the climate community has come 
around to the fact that infrastructure policy is climate 
policy, and that we must build bigger, stronger, and faster. 
But we have to have the tools in place, and we have to make 
sure that the processes work.
    So resilience being baked into the equation from the 
beginning is essential to make sure that we have sound 
infrastructure and that also we protect our economy and protect 
communities.
    Senator Carper. Thanks.
    Mr. Chairman, we might want to invite more debate team 
members to come before us. These folks are really exceptional.
    Thank you.
    Senator Barrasso. And we don't need to limit it to Brown 
University, either.
    Senator Whitehouse. I think we should.
    [Laughter.]
    Senator Carper. What has Brown done for you lately?
    [Laughter.]
    Senator Barrasso. Senator Whitehouse may have a specific 
recommendation regarding the best of Brown.
    Senator Whitehouse. We Rhode Islanders are very proud of 
Brown.
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you.
    Thank you, Mr. Chairman.
    I want to thank our panel. What a difference a year has 
made. We know 11 months ago we approved ATIA, and in a 
unanimous, bipartisan fashion it came through our Subcommittee. 
We worked with Senator Cardin. And of course I appreciate the 
Chairman and Ranking Member kind of pulling it over the finish 
line. I think today it is now more deserving than ever that we 
take it, not just from the full Committee, but up to the full 
Senate and enact it into law.
    I think COVID-19 has hammered our national economy. All 
three of you talked about that. It has really carried cost.
    Installing the investments, for example, in my State of 
West Virginia, driving on deficient roads costs West Virginia 
drivers $866 million per year, a hidden expense of about $754 
per person, due to vehicle wear, depreciation, extra fuel. We 
do have some difficult terrain at times to get around. But it 
can also contribute to fatalities and injuries. And that costs 
money and obviously lives, which is very difficult.
    I think that for places like West Virginia--I am just going 
to mention some that I think will be particularly important in 
this bill. The Nitro-St. Albans Bridge, which is I-64 outside 
of Charleston, and completing Corridor H, which is the last 
really planned part of the Appalachian Development Highway 
System, which goes through the center of our State, which has 
been being built for decades. We want to see that complete.
    So I was proud to work with the regulatory streamlining 
provisions that are in here. Getting the permitting is 
absolutely critical.
    Mr. Lanham, I have been on transportation for many years. 
Obviously here, and then over in the House, I was on the House 
Transportation Committee.
    We have had a lot of stops and starts over the years, where 
we have had 3 month extensions, 6 month extensions, not quite 
as long as even a year. I know you have been in business for a 
while, and I am sure your company has been held hostage by the 
stops and starts and the sputtering of those acts as we did 
that over the last several years.
    What kind of impact does that have on a company like yours, 
on your ability to get these large projects done, if we are 
only extending for 6 months, or extending for 3 months? Could 
you make a comment on that?
    Mr. Lanham. Senator, it is devastating to the program. One, 
because almost all these significant projects are multi-year 
projects. So unless there is funding certainty, according to 
Federal rules, the transportation plan is fiscally constrained. 
So unless they have the funding in place, those significant 
projects fall off the immediate plan. Or they trade funding for 
other essential projects and bundle it into the one.
    But the overall system loses. The effect to businesses like 
ours is we lose opportunity. Then when there is reduced 
opportunity, we are laying people off.
    Senator Capito. Right. That is what I was going to ask.
    Mr. Lanham. In 2008, we laid off 30 percent of the company.
    Senator Capito. In 2008?
    Mr. Lanham. Yes, ma'am.
    Senator Capito. Are you back up, or were you back up?
    Mr. Lanham. We are getting close, but it took a decade.
    Senator Capito. And those are jobs that are good paying 
jobs; they sustain a lot of families in Texas, and certainly 
across the country.
    I am interested to know, too, during the COVID experience 
that you had, did you have to furlough some of your employees?
    Mr. Lanham. Senator, no. We were blessed in our 
jurisdiction to be deemed an essential and critical activity. 
We capitalized on that. Now, we did operate safely, and 
instituted all the protocols in the workplace deemed 
appropriate and recommended.
    And we were able to advance projects and advance the 
schedule on projects because of the shutdown and the reduced 
traffic demand. Because we are strictly a road and bridge 
builder. So the reduced amount of cars, we advanced projects 2 
and 3 months in the schedule because of that.
    Senator Capito. I guess there are some hidden nuggets of 
good news that happened during this time.
    I was interested to hear, Mr. Grumet, you mentioned 
pipelines. In my State, we have two major pipelines that have 
been stalled in the courts for years. I think it is 
unreasonable to think that to get to the environmental goals of 
some of the community who think they are all of a sudden going 
to be accepting of pipelines is because they fight them every 
step of the way. Even though they have been lawfully, the one 
just went to the Supreme Court, on the permitting process.
    I am very pleased that the NDAA includes a bill that 
Senator Whitehouse and I have worked on together, from both 
sides of the aisle, it is called the USE IT Act. What it does 
is it works with the creation of pipelines to carry that 
CO<INF>2</INF> to other energy producing sites. Hopefully, that 
will have some impact.
    But we all have to get--if we are going to modernize and 
build and use our own natural resources, this pipeline stalling 
and using legal tactics to really off the projects is deeply 
troubling to me and my region of the country. Certainly, it has 
to be troubling to the Northeast, where our resource aren't 
able to help those folks up there have more affordable energy 
costs.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman, and let me thank 
all the panelists. I am sorry I have to do this through the 
Internet, and not be there in person to join you. But let me 
thank you all.
    I just really want to underscore first the points that have 
been made by my colleagues. Senator Capito and I have worked 
very closely together in regard to infrastructure. I am very 
proud that we are able to do that in a bipartisan manner to 
advance infrastructure legislation. We have done that certainly 
on the surface transportation. We have also done it on the 
Water Resources Development Act.
    But I think we all understand how important the COVID-19 
was for us to move forward with infrastructure in this country. 
We are still in triage, so we are still dealing directly with 
the pandemic, dealing directly with the immediate economic 
impact. But we also need to recognize that when we come out of 
COVID-19, there is going to be a need for us to create jobs. 
Because many of the jobs that were here before COVID-19 are 
going to be lost, and we need to create jobs.
    Investing in infrastructure helps us create jobs. And that 
is one of the real pluses here. We need to have a chapter this 
year pass that puts us on the growth for infrastructure 
improvement. At the end of the day, when we do that, we not 
only create jobs, we have a better community for the people to 
live in.
    But here has been the key of the Environment and Public 
Works Committee. This is really what I want to emphasize, 
because I know we are having discussions about how we deal with 
resiliency, how we deal with a balanced program, how do we deal 
with issues such as transportation alternative programs. And 
there are different views in our Committee on that. And that is 
understandable. But we have been able to come together with a 
bipartisan product because we have listened to each other.
    So yes, we need to build roads, and build and improve 
bridges. I can give you two in Maryland that need to be 
replaced, the Johnson Bridge, the Nice Bridge, we need to make 
sure we do that.
    But we also have to invest in maintenance and maintain our 
current infrastructure. We have to invest in transit. In 
Maryland, the Purple Line is now under construction. The Purple 
Line is critically important for the traffic jams that we have 
in the Washington, DC, area.
    So we need to invest both in roads and bridges, but also in 
transit. Yes, we need a very strong, robust Federal 
partnership, but that can't be dominant from the point of view 
of local decisionmaking. But that is why the Transportation 
Alternative Program is a critically important part of our 
Surface Transportation Act.
    Bipartisan efforts; I was on the phone earlier this week 
with our tourism industry. Obviously, it has very much been 
impacted by COVID-19. But they stressed to me the importance of 
TAP funding in order to deal with local priorities that can 
help their local economy and a better quality of life for the 
community that they serve.
    So we have to be mindful of that. We also need to have 
opportunities where it is appropriate for public-private 
partnership. These are all issues that we want to deal with.
    But the issue that--I just heard the last discussion with 
Senator Carper, dealing with resiliency, dealing with 
adaptation, dealing with smart transportation alternatives for 
our environment, such as electric vehicles. All that needs to 
be part of a balanced package so that we can continue to enjoy 
strong, bipartisan support for a robust infrastructure program 
that can pass the Congress and be signed into law.
    I want to ask Ms. Goldfuss a question, sort of to tail onto 
something you have already talked about. And that is, there is 
always the issue of whether it is going to be good for the 
environment or good for our economy. I think that is a false 
choice, and I want to give you an opportunity to explain how 
when you invest in smart environmental policies, including in 
transportation, it is actually a plus for our economy. I will 
give you an opportunity to expand on that if you might.
    Ms. Goldfuss. Thank you, Senator. It is absolutely a false 
choice, and the American public believes that. If you have good 
governance, if you have a Federal Government that knows how to 
move through a process, then you can have both good community 
engagement and understanding of the clean water impacts, the 
clean air impacts that are going to come from a project. You 
also will understand how to use the taxpayers' money in a sound 
way.
    But that is the bare minimum that the American public 
expects, that they are going to have clean air and clean water, 
and they are going to have safe bridges and safe roads. So to 
say that one has to be sacrificed for the other, or that one 
needs to be put aside for the other, is wrong on both sides. We 
have got to do them both. That is the expectation. And with the 
processes and a strong government that understands how to move 
through the process and engage the public, you can have both.
    Senator Cardin. Thank you very much.
    And thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you and 
Senator Carper, for holding this hearing, which is so 
important.
    Mr. Lanham, as you know, America has a complex 
transportation system in dire need of repair. Without our 
Nation's rail network, barges, and trucks, much of our economy 
would become stagnant. We all agree on the importance of 
infrastructure investment, but if we rely too heavily on one 
mode of transportation, we do ourselves a disservice.
    When commerce is strong, it is because of our intermodal 
system. I believe it is important that we invest in all of its 
components.
    Will you explain how water, road, and rail all rely on each 
other in a cost effective and efficient commerce system? In 
fact, I think J.B. Hunt--their headquarters happens to be about 
5 miles from where I live--I think they are one of the biggest 
customers, maybe the biggest customer, of the railroads in the 
sense of the ability to use containers on trucks and rails and 
how that works together.
    Mr. Lanham. Senator, we have a multi-faceted transportation 
network. It is probably a lot more complex than most people 
would even realize. When it comes to the movement of goods and 
services, rail, truck, rails out of ports to distribution 
centers onto trucks, just exactly as you described, Senator. 
With regard to much of our public infrastructure, it is also 
the conveyance of clean water in our water system.
    So the importance of water right now, just to leave a 
point, is probably in--we refer to it back home in Texas, it is 
the new gold. Without water, we have no life. It is an 
essential element. It is part of our infrastructure network 
that we critically, critically need to take care of. It almost 
always occupies the public right of way that holds a road, 
almost always, somewhere.
    So they are both so significant in purpose to when we talk 
about the quality of life of Americans in our infrastructure 
investment in the broadest sense, that is exactly what we are 
saying. Clean water, great transportation network, affordable 
goods and services to the average citizen. They can enjoy a 
quality of life that is unprecedented. We have grown to expect 
that in this Nation, and we need to continue that investment.
    The challenges that we face are going to require 
unprecedented levels of investment.
    Senator Boozman. As we have on time delivery, things like 
that, the efficiency being so much greater than it used to be, 
what does that do for the environment?
    Ms. Goldfuss. Yes, for the environment, it is important to 
have the information about where the projects are going to be. 
That allows you to understand what places should be protected, 
what places are necessary for clean water and clean air, and 
where we can actually have development that will be----
    Senator Boozman. As far as just moving goods and services 
efficiently, where you are not running your truck or your, the 
inefficiencies on our waterways that occur sometimes, what does 
that do?
    All of this, again, working together, if we have system 
that works well, works efficiently, we get rid of the areas of 
congestion that we have that, again, the on time delivery 
system, which has been such, we have experienced some problems 
with that, with COVID. And we need to address that in the 
future.
    But the system really does work very well. So getting these 
things right, besides being more efficient, more cost effective 
and things like that, it is also very helpful for the 
environment, too.
    Ms. Goldfuss. Certainly, the grant programs that you have 
in this bill around ports and around diesel emissions 
reduction, anything that is more efficient reduces pollution. 
And that clearly reduces the impact in the environment. That is 
going to be essential for us to get those systems right, so 
that we are able to calibrate and make sure that we get those 
pollution reductions that we need.
    Senator Boozman. OK. Very good.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    First, let me welcome not one but two Brown University 
graduates. This is a big day for Rhode Island in the Committee.
    And let me thank the Chairman for his concern for 
bipartisanship in infrastructure. I think that the Chairman's 
concern for bipartisanship in infrastructure could well be met 
by a conference between the Republican controlled Senate and 
the Democratic controlled House on an infrastructure bill if we 
can get it through the Senate floor. So I am all for getting 
our bill through the floor, and moving to conference.
    My question for the witnesses has to do with geography. As 
you know, Rhode Island is a very coastal State.
    Thank you, Chairman, for mentioning hurricane season, 
something that does not hit landlocked Wyoming, but is a big 
deal for our coastal States.
    I wanted to consider some of the things that we face on 
coasts. We oversee the Army Corps here. If you can believe it, 
there is a fund at the Army Corps called the Flood and Coastal 
Damage Reduction Fund. But if you look at how much of the money 
in it gets spent on coasts, on a good year, it is $1 out of 
$20. In a bad year, it is $1 out of $120.
    So here is the Army Corps in theory having this fund for 
coasts, and ignoring coasts almost completely.
    We have just passed, with my support, the Land and Water 
Conservation Fund. I am very sorry that we were not given the 
chance to add a bipartisan amendment that would have passed to 
increase funding for coasts. Because as we know, the Land and 
Water Conservation Fund is an upland and inland program. For 
every dollar that goes to inland States, only 40 cents per 
capita goes to a coastal State.
    And in the coastal State, a lot of that 40 cents gets spent 
in Texas, in Pennsylvania, and New York, on projects that are 
not coastal. So if you dig deeper, the bias in the Land and 
Water Conservation Fund against coasts is far worse than the 
two to one that you would think, just looking at the States 
themselves. Unfortunately, we weren't able to get anything for 
coasts until the Land and Water Conservation Fund.
    On wind energy, we see in Wyoming and across the country 
wind energy development happening very rapidly. In our coastal 
States, with one exception, Rhode Island, we have offshore wind 
energy that is completely tangled up in siting, and we have a 
Trump administration that seems only to care about 
environmental concerns when it can put them in front of 
offshore wind. Because what offshore wind does is it displaces 
natural gas, and the people making these decisions come 
straight out of the fossil fuel industry.
    So again, coasts are getting treated like second class 
citizens.
    Of course, we face things that other States don't, which is 
that our shores will actually disappear. We are actually going 
to lose parts of our State to sea level rise.
    I would like to put a recent article from the Providence 
Journal titled Rising Threat: New Study Finds Thousands More 
Properties at Risk of Flooding, into the record, Mr. Chairman.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]5

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. So my question to the panel is, should 
we not be focusing a lot in infrastructure on coasts? Not just 
the infrastructure that is at risk along the coast, but also 
the infrastructure that can support them as they take the 
beating that climate change has steering toward them right now.
    Mr. Grumet. Senator, on behalf of the whole panel, I can 
assure you that we all believe that coastal preservation and 
resiliency is essential.
    I want to pick up quickly two points you made. You 
mentioned offshore wind. I think offshore wind is the poster 
child for what we need to do to improve our permitting 
structure in service of a sustainable climate. We have an 
incredible resource base in this country for offshore wind. 
They are building offshore wind in Europe.
    We do not have a technological challenge in this country.; 
we have a bureaucracy challenge in this country. And if we 
can't figure out how to streamline and modernize our permitting 
system, we are going to lose that incredible opportunity, both 
economic opportunity and environmental opportunity.
    I would step back and think more broadly about our disaster 
relief system in general. It tends to be kind of a mess. It 
tends to be a mess because we focus on disaster relief mostly 
in the middle of natural disasters, which of course the worst 
time to be thinking about forward looking cost-benefit analysis 
and planning. It is the time you have to be thinking about 
people who are suffering immediate harm.
    I think one of the problems, as I mentioned earlier, is we 
don't pay for our disasters. We are surprised year over year by 
very predictable events. We do emergency off budget funding. 
And we try to raise money, but do not do the kind of rigorous 
planning that you are suggesting is necessary.
    If we had to grapple, if this Congress had to grapple with 
appropriating a trillion dollars of disaster relief funds, I 
think that would focus the mind in a different way. I think you 
would start to see a more equitable resource allocation that I 
think would probably address some of your concerns about 
coastal resources.
    Senator Whitehouse. Mr. Chairman, I am over the time, so if 
I could ask the other two witnesses to respond as a question 
for the record, I would appreciate it.
    And if I may take a Rhode Island moment, I would like to 
say that there is a reason that the only offshore wind located 
anywhere in the United States is sited in Rhode Island. It is 
because Rhode Island figured out how to solve the siting 
problem.
    It really wasn't all that complicated. It begins with 
bringing everybody who has an interest in the location into the 
same room and sorting out the really obvious stupid questions, 
getting them off the table, getting them all sorted out before 
you begin the application process. And then you can use the 
process to sort through further details.
    Unfortunately, both the other companies that came into this 
process, including a Massachusetts company that should have 
known better, and the Administration, despite having that 
winning program right in front of them, that process right in 
front of them, decided to go completely different ways. As a 
result, we are still all totally bolloxed up. It is 
unfortunate. I hope that it is not also driven by a bad motive.
    Thank you.
    Senator Barrasso. Thank you so very much.
    Senator Booker.
    Senator Booker. Thank you, Mr. Chairman. I appreciate this 
hearing more than you know. It really is incredible for me to 
see the depth and level that we have of bipartisan spirit here.
    I heard a mention earlier of the Bayonne Bridge. I remember 
how frustrated I was to see a lot of the challenges we had in 
terms of getting a lot of the approvals necessary for projects 
that were utterly essential.
    And so I just want to first and foremost ask the panel to 
reaffirm something that I really believe, that there is a large 
bipartisan sense of urgency in our country to do what is 
necessary in this area. We are a Nation that, this is not a 
left or a right issue, it is really about moving forward.
    I know this was mentioned earlier, but if you could 
specifically talk about this false dichotomy between affirming 
the environmental urgencies of this moment and making sure that 
we also get projects done in a timely way that honors the 
taxpayer dollar.
    I know that there are issues; the Eisenhower Highway Act 
would be about a trillion dollars' worth of infrastructure 
investment if it was done today. But we wouldn't get as far 
today because of a lot of the challenges of approvals and the 
like.
    But I really do believe that there is a resonance between 
streamlining and looking forward and getting major projects 
done.
    In New Jersey, there is an outrageous urgency, for example, 
to get the tunnels under the Hudson River, it has been at the 
heart, at the center of so much of my work, working across the 
aisle with then-Governor Chris Christie, and Democrat Chuck 
Schumer, to get us all on the same page, to create a 
streamlining process to get something done quickly that 
ultimately, when done, will have a massive environmental 
positive impact on our region.
    So I just react against a lot of the gridlock, and I am 
really working to smooth the sort of partisan fissures to get 
things done. I would just love to have the panel affirm that 
sense of urgency I feel, and that sense of conviction I feel 
that this is not a left or right issue.
    This is about moving our Nation forward, about seizing 
opportunities, about adding to our economy, and ultimately, 
frankly, it is about making sure that we seize the chance to 
show that infrastructure and the environment are not only 
resonant, but we cannot deal with our climate change challenges 
without forging ahead far more aggressively on the 
infrastructure projects, major infrastructure projects in our 
country.
    If the panel would comment on that, I would appreciate it.
    Mr. Grumet. Senator, this is Jason Grumet. If I can just 
jump in. I think the urgency is there, and the opportunity is 
there, but it is going to have to be seized by this Committee.
    For too long, those who have been focused on infrastructure 
have been disinterested in climate change. And those who have 
been focused on climate change have been disinterested in 
infrastructure. We are all losing. We are not solving the 
climate problem, we are not increasing the strength of our 
economy, and we are not addressing our resiliency issues.
    This Committee has taken a very bold, and modest, but very 
bold step to reconcile those two different views. I think the 
combination of our economic crisis, which is not going to be a 
V shaped recovery, and the growing bipartisan appreciation that 
we have a climate crisis, which we can solve with a broad based 
set of solutions, not just renewables and energy efficiency, 
but a broad based, non-carbon set of solutions that include 
nuclear power and CCS and battery storage. I think we are at 
moment now, at an inflection point, where we can get our arms 
around this whole debate and really push things forward.
    But we are not on track toward success. We have made 
tremendous strides in renewable power. It is now about 10 
percent of our overall on the grid. We now have to get from 10 
percent to 80 or 90 percent in 30 years.
    So I do not believe we will seize this moment unless this 
Committee leads the effort to reconcile a shared climate 
vision.
    The climate change issue has been a proxy fight in 
infrastructure project after infrastructure project. It is a 
losing battle, because it is not solving the climate problem, 
and it is not solving our economic problem. So I think there is 
a real important accomplishment in this piece of legislation 
that we really need to focus on and build upon, and build upon 
quickly.
    Senator Booker. Thank you.
    Anybody else who would like to comment?
    Mr. Lanham. One brief comment, Senator. The environment and 
meeting the public need for infrastructure is not mutually 
exclusive. We know that and understand that. But for both sides 
now, what we have to have is a process where there is 
accountability.
    We all can tell war stories on both sides of the issue. The 
abuse of the system and abuse of the process would either work 
to the detriment of the environment or work to the detriment of 
a public improvement. That is not what this Committee is about, 
and there needs to be accountability in the implementation of 
the vision this Committee is putting forward. Without that 
accountability, we are going to continue to stumble and have 
these problems in the execution.
    Senator Booker. Ms. Goldfuss, before you answer, I want to 
throw one more question on top for you.
    I was a former mayor who was in office during the Great 
Recession. I know firsthand that during economic downturns, 
like we are in right now, local governments face challenges.
    Right now there is an additional need for Federal 
infrastructure investment to rebuild our Nation's 
infrastructure, frankly, and address a lot of the economic 
challenges we have. It is one of the best times to spend money 
because the cost of capital is so much cheaper.
    I just want to get a little bit deeper with you on the old 
rail tunnels and the related infrastructure between New York 
and New Jersey. This literally is where the Northeast region, 
which is one of the greatest economic regions on the entire 
planet, it is among the most critical infrastructure projects 
we have in our country right now. I believe that our whole 
country really is relying upon us, on the busiest rail corridor 
in all of North America, in doing something urgently.
    This is a project I want you to comment on. Because if we 
do not act immediately to advance the Gateway Program, not only 
will New Jerseyans continue to suffer and see regional economic 
harm, but it will cause a harm to the entire Northeast region 
because of the countless hours of delay that we see, from 
affecting individual families, to regional economy. Should the 
tunnel shut down, it would be cataclysmic in terms of the 
effect on the economy, costing us about $100 million each day.
    On the other hand, though, on the positive side, every 
dollar that we invest in the Gateway Program provides $4 in 
return to our economy. So in this time especially this project 
will create jobs, boost the economy, improve safety and the 
quality of life for New Jersey commuters.
    So I just want to ask you, in addition to the previous 
question, and then I will cede my time, but can you discuss the 
need for, on large scale projects like this, of national 
significance, in the context of a comprehensive Federal plan 
for stimulus economic recovery?
    The Gateway Program in particular, it is important to note 
that these tunnels are just an example of the importance and 
effectiveness of NEPA, the NEPA process when it comes to large 
scale infrastructure.
    So it is incredible that we have so many stakeholders 
nationally in a project like this, but we are still struggling 
with something as simple as an environmental impact statement 
with the Department of Transportation. I am so frustrated that 
we are years into this Administration and it continues to 
refuse to even finalize an environmental impact statement which 
will allow us to go forward.
    So I am just hoping that, Ms. Goldfuss, you could comment 
on that frustration as an example, frankly, of how the lack of 
efficiency within our bureaucracies, and this truly profound 
impact it has on economic development on jobs, on the 
environment as well.
    Ms. Goldfuss. Senator, I would just speak to your project 
and also the offshore wind projects that Senator Whitehouse 
raised. In both of these cases, there was very concerning 
evidence that politics has come into play in the environmental 
review process. Secretary Bernhardt is hugely critical of the 
environmental review process, yet decided to slap an entirely 
new set of environmental reviews on the offshore wind projects. 
It makes no sense.
    Similarly, with the Gateway Project, we have clear evidence 
of the Trump administration and officials joking about slowing 
down the environmental review for the Gateway Project.
    I know this Committee does not believe that politics should 
be involved in these major, major infrastructure projects that 
would put people back to work. I am hoping that we are seizing 
on a moment here where we need to put people back to work. 
There is an understanding that we need funding and investment 
in communities to do that. And we will find a way to remove the 
politics, understanding that jobs, whether they are around New 
York City, jobs offshore in Rhode Island, jobs in Wyoming, in 
any part of this country are going to be essential to the 
recovery coming out of this recession.
    Senator Booker. I will just say in conclusion, this is so 
utterly unacceptable, that something as simple as an 
environmental impact statement, which we have been waiting for 
for 2 years, this is clearly an example of not just 
bureaucracy, but playing politics with the most important 
infrastructure project in North America, and arguably because 
of its economic impact, not to mention its environmental 
impact.
    Just to travel from Boston to Washington, DC, we now move 
at half an hour slower than we did in the 1960s on the busiest 
rail corridor in America. It is absurd. It is unacceptable.
    China has built 18,000 miles of high speed rail. Our 
busiest rail corridor in America moves half an hour slower than 
it did in the 1960s.
    I am tired of the politics. This is outrageous. I have been 
working in a bipartisan manner with people on this Committee 
and others, with Roger Wicker and others, to advance this 
project, to change legislation, to get everything done.
    Now we are facing hold ups within the Trump administration 
that are pure politics. There is no way to deny that. You can't 
even get this environmental impact statement. It is 
frustrating.
    When this whole Committee hearing is talking about 
smoothing, expediting, getting things done, for the sake of our 
Nation and patriotism, it is so offensive to me that this 
project is being stalled because of politics, and really 
unacceptably hurting this country, our economy, and the well 
being of families in New Jersey and beyond.
    I will submit the rest of my questions for the record.
    Thank you.
    Senator Barrasso. Thank you very much.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I ask unanimous consent to submit into the record a letter 
from scholars across disciplines, which studied the National 
Environmental Policy Act in Federal decisionmaking. In short, 
the data that they have pointed to is even starker than we have 
been discussing.
    According to the research, far less than 1 percent of 
projects involve lengthy delays. Moreover, factors other than 
NEPA will likely contribute to the overall duration of these 
projects as well.
    Senator Barrasso. Without objection, so ordered.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you, sir.
    One question, if I may, for Ms. Goldfuss, please. In your 
written testimony, you cited a report by the Rhodium Group that 
was released on June 29th, 2020, I guess it was just a couple 
of days ago. As you stated the report found that, ``The average 
Black American is exposed to 46 percent more diesel particulate 
matter emissions and 22 percent more air toxic respiratory 
hazards than White Americans.''
    Given those statistics, it seems that where and how we 
engage with communities to build new roads in the future could 
help reduce this kind of pollution exposure.
    My question is simply, would you discuss how the existing 
NEPA processes, when conducted appropriately, could help 
communities address environmental injustices in transportation 
projects as well as build infrastructure more expeditiously and 
save taxpayers money, please?
    Ms. Goldfuss. Thank you. When we conduct community 
engagement in an appropriate way, we identify the problems 
before we even start to build. So what are the concerns that a 
community raises about pollution, about location, about impacts 
to the costs of their community?
    In addition to that, we are able to share data about the 
particulate matter that is expected from a particular project, 
or about the other toxic pollution that could be a part of 
whatever development we need.
    Last, we are able to look at how that is layered upon the 
other development and the other impacts in that community.
    I always talk about Mossville, Louisiana, which is 
surrounded by 12 petrochemical plants. It is in Cancer Alley. 
This particular community, it would be insane to propose 
another project, another industrial project, without looking at 
how you are adding to the overall toxic burden of that 
community, rather than some place in a remote place where this 
would be the only facility.
    So when the NEPA process has done well, when we are 
building off of data from different agencies, and we are 
incorporating the feedback from communities, you get to a place 
where you are able to resolve problems, so that a project can 
go faster, and that you are able to understand what the impact 
is and what the concern is going to be at a local level before 
you get too far down the road, and site the project in a place 
where you will have the least amount of conflict.
    So I know that is the rosiest vision of how NEPA would 
work. But that is how it should work. If we have the tools, and 
there are tons of data tools, state of the art tools that we 
can use to expedite that process. And we have the will of a 
Federal Government that wants to listen to the people, not just 
the companies.
    Mr. Grumet. Senator Carper, can I just add that in addition 
to the project focused decisionmaking, we know we have two 
imperatives. We have an absolute imperative to build major 
projects very quickly. And we have an imperative not to 
exacerbate disparate impact on communities of color that have 
been burdened by environmental justice concerns.
    We don't have to wait for a project to be proposed to 
understand the scope of these two challenges. What Congress 
tried to do in the 2005 Energy Policy Act was look forward and 
say, Where should we build things? What are the critical 
corridors? How do we step back and say, We are going to need 
thousands of miles of power lines and pipelines and battery 
storage facilities and renewables. Where are the right places 
to put those, and where are the wrong places to put those?
    We should be getting ahead of this conversation and 
understand in the communities that have been unfairly imposed 
upon and protecting those communities, not stumble into these 
processes one after one after one. We have a national 
imperative to do both these things at once.
    I think NEPA is a tool, but it is not the only tool we 
should be thinking about. I think we need a much more proactive 
national planning process that tries to reconcile these two 
concerns.
    Senator Carper. Thank you both very much for what you have 
said.
    I would ask Bob Lanham, if you have a comment or thought 
you would like to make before we conclude? Anything else you 
would like to add?
    Mr. Lanham. Senator, I appreciate, again, the opportunity 
to be here. It is amazing.
    I would leave with you, I had the pleasure and privilege 
about 18 months ago--and much of the dialogue was the same 18 
months ago.
    One thing a little bit absent that still I think is germane 
to our transportation network is based on what I see us do each 
and every day, building roads and bridges has to be one of the 
most sustainable construction processes in the country. Yet it 
is a story that we do not tell.
    Between 2001 and 2009, we reconstructed 24 miles of 
Interstate 10 west of downtown Houston. And every bit of the 
concrete and base materials and pavements that were in the 
existing roadway was recycled and reused.
    Senator Carper. That is great.
    Mr. Lanham. Those stories around the country are not told. 
I think we do ourselves a disservice to not being able to 
explain to the greater public about what actually happens on 
these projects.
    Senator Carper. Good. I am glad I asked, and I am glad you 
answered. That was a good note to close on.
    Mr. Chairman, this has been an extraordinary panel and I 
think quite a productive hearing.
    Thank you all.
    Senator Barrasso. We thank all of you as well for being 
here, for joining us, and for sharing your great insights on 
these very important topics.
    There are no other questions today, but there is going to 
be an opportunity for some members to submit some written 
questions. They may do that in the next couple of weeks, so we 
are going to keep the hearing record open for 2 weeks.
    I want to just thank you again for being here. It was very 
helpful. I am glad you were able to get out of the house for 
the first time in 3 months. We will have to have you back again 
some time soon. Thank you to all three of you.
    With that, I do have a unanimous consent request for 
materials for the record. Unanimous consent to enter into the 
record a statement from the American Association of State 
Highway and Transportation Officials, and a statement from the 
National Sand, Stone and Gravel Association in support of 
today's hearing.
    Without objection, they will be submitted to the record.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. With that, the hearing is adjourned.
    Thank you very much.
    [Whereupon, at 11:34 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
